                                                                 Issue Date
                                                                          September 10, 2010
                                                                 
                                                                 Audit Report Number
                                                                          2010-KC-1007




TO:        Cliff Taffet, Director, Office of Affordable Housing, DGH

           //signed//
FROM:      Ronald J. Hosking, Regional Inspector General for Audit, 7AGA

SUBJECT: The Missouri Housing Development Commission Did Not Always Obtain
           Required Documents and Properly Report on the Tax Credit Assistance
           Program Funded Under the Recovery Act


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Missouri Housing Development Commission (Commission)
             because it received and disbursed the largest amount of American Recovery and
             Reinvestment Act of 2009 (Recovery Act) funds in Region VII. The Commission
             received nearly $39 million in Tax Credit Assistance Program (TCAP) funds and
             had disbursed more than $14 million of these funds as of May 3, 2010. Our
             objectives were to determine whether the Commission obtained wage reports and
             lobbying certifications required by Federal law and accurately reported job
             creation to Recovery.gov.

 What We Found


             The Commission did not obtain and review all Davis-Bacon Act reports and
             lobbying certifications from contractors working on TCAP-funded projects.
             Therefore, it could not determine whether its contractors complied with Federal
             wage rate requirements and lobbying prohibitions. Additionally, it did not
             accurately report job creation data to Recovery.gov. As a result, the number of
           jobs created for the fourth quarter of 2009 was overreported by 0.16 and was
           underreported for first and second quarters of 2010 by 12.6 and 1.31, respectively.

What We Recommend


           We recommend that the U. S. Department of Housing and Urban Development
           (HUD) require the Commission to design and implement a system for identifying
           contractors working during the month on TCAP-funded projects and tracking the
           receipt of required documentation. Additionally, the Commission should obtain
           and review the required lobbying certifications and Davis-Bacon Act files that are
           missing.

           Further, we recommend that HUD require the Commission to restate its fourth
           quarter 2009 and first quarter 2010 job creation figures in its administrative files.
           Also, the Commission should restate its second quarter jobs creation figures to
           Recovery.gov during the continuous correction period and establish an adequate
           system for reviewing the job creation reports to ensure proper reporting in future
           quarters.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the Commission with our draft report on August 19, 2010. We
           received its written response on September 3, 2010. The Commission generally
           agreed with our findings.

           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix A of this report.




                                             2
                           TABLE OF CONTENTS

Background and Objectives                                                      4

Results of Audit
      Finding 1: The Commission Did Not Obtain All Wage Reports and Lobbying   5
      Certifications Required by Federal Law

      Finding 2: The Commission Inaccurately Reported Job Creation to          7
      Recovery.gov


Scope and Methodology                                                          10

Internal Controls                                                              11

Appendixes
   A. Auditee Comments and OIG’s Evaluation                                    12




                                           3
                     BACKGROUND AND OBJECTIVES

The Missouri Housing Development Commission (Commission) was established by the 75th
Missouri General Assembly in 1969 and is the housing finance agency for the State of Missouri.
The Commission operates under a board of commissioners including the governor, lieutenant
governor, attorney general, state treasurer, and six persons appointed by the governor with the
advice and consent of the Senate. The Commission has invested almost $4 billion to construct,
renovate, and preserve affordable housing.

The Commission functions as a bank, providing financing directly to developers of affordable
rental properties and funding for home loans to qualified, first-time buyers. It also administers
the Federal and Missouri Low Income Housing Tax Credit (LIHTC) programs and the Federal
HOME Investment Partnerships Program (HOME) funds as well as other programs related to its
housing finance activities.

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009 (Recovery Act) into law. The purpose of the Recovery Act was to jump-start the
Nation’s economy, with a primary focus on creating and saving jobs in the near term and
investing in infrastructure that will provide long-term economic benefits. The Recovery Act
appropriated $2.25 billion under the HOME program heading for a Tax Credit Assistance
Program (TCAP) grant to provide funds for capital investments in LIHTC projects. The U.S.
Department of Housing and Urban Development (HUD) awarded TCAP grants to the 52 State
housing credit agencies. On June 26, 2009, HUD awarded the Commission nearly $39 million in
TCAP funds.

Although these funds were appropriated under the HOME heading, TCAP funds are not subject
to any HOME requirements other than the environmental review and can only be used in LIHTC
projects, which are administered through the U.S. Department of the Treasury. HUD awarded
TCAP grants to facilitate development of projects that received or will receive LIHTC awards
between October 1, 2006, and September 30, 2009. Since a major purpose of these funds is to
immediately create new jobs or save jobs at risk of being lost due to the current economic crisis,
the Recovery Act establishes deadlines for the commitment and expenditure of grant funds and
requires State housing credit agencies to give priority to projects that will be completed by
February 16, 2012.

As of May 26, 2010, the Commission had awarded all of its TCAP funds to 24 LIHTC projects
and disbursed more than $17 million of these funds. The 24 LIHTC projects consist of 12 family
and 12 elderly projects, which will create or rehabilitate 1,474 housing units. According to
Recovery.gov, the TCAP funds had created 31.11 jobs as of May 31, 2010.

Our objectives were to determine whether the Commission obtained wage reports and lobbying
certifications required by Federal law and accurately reported job creation to Recovery.gov.




                                                4
                                RESULTS OF AUDIT

Finding 1: The Commission Did Not Obtain All Wage Reports and
Lobbying Certifications Required by Federal Law
The Commission did not obtain all wage reports and lobbying certifications required by Federal
law. This deficiency occurred because the Commission did not have an adequate system in place
to identify which contractors worked on TCAP-funded projects each month. As a result, it could
not determine whether its contractors complied with Federal wage rate requirements and
lobbying prohibitions.


 The Commission Did Not Meet
 Federal Law Requirements


              The Commission did not obtain all Davis-Bacon Act wage reports and lobbying
              certifications required by Federal law. Specifically, for the three projects reviewed,
              the Commission did not obtain Davis-Bacon Act files for 5 contractors and lobbying
              certifications for 5 contractors.

              Section 1606 of the Recovery Act states that the Davis-Bacon Act prevailing wage
              requirement applies to Recovery Act-appropriated construction projects.
              Requirements at 40 U.S.C. (United States Code) Section 3145 and 29 CFR (Code of
              Federal Regulations) Part 3 state that contractors and subcontractors on covered
              projects must pay all laborers and mechanics weekly and submit weekly certified
              payroll records to the contracting or administering agency.

              Further, in accordance with 24 CFR Part 87, TCAP funds may not be used for
              lobbying activities. To comply with this requirement, all TCAP contractors and
              subcontractors that receive more than $100,000 in TCAP funds must submit a
              certification for contracts, grants, loans, and cooperative agreements.

The Commission Relied on the
Contractors To Supply All
Required Documentation

              The Commission did not have an adequate system in place to identify which
              contractors worked on TCAP-funded projects each month. It relied on the general
              contractors of each project to supply all required documentation for the
              contractors. While the Commission did obtain a list of contractors working on the
              projects, the list used for Davis-Bacon monitoring did not indicate which
              contractors worked each month. Therefore, the Commission could not determine



                                                5
          what documentation was required and what documentation was missing on a
          monthly basis.

The Commission Could Not
Determine Compliance

          As a result of the conditions described above, the Commission could not
          determine whether its contractors complied with Federal wage rate requirements
          and lobbying prohibitions. It needed to review these documents to ensure that the
          contractors paid the proper wage rates and were not lobbying.

Recommendations

          We recommend that the Director of Office of Affordable Housing require the
          Commission to

          1A.     Design and implement an adequate system for identifying contractors
                  working on TCAP-funded projects during the month and tracking the receipt
                  of required documentation.

          1B.     Obtain and review the required lobbying and Davis-Bacon Act reports that
                  are missing.




                                           6
Finding 2: The Commission Inaccurately Reported Job Creation to
Recovery.gov
The Commission did not accurately calculate jobs or report them to Recovery.gov. This
deficiency occurred because the Commission did not establish an adequate system for reviewing
the job creation reports supplied by the contractors and was unaware of changes to the job
calculation methodology. As a result, the public did not have access to accurate information on
the number of jobs created with the Commission’s TCAP funds.


 Job Creation Calculations Did
 Not Follow HUD and OMB
 Guidance

              The Commission did not accurately calculate or report jobs to Recovery.gov. It
              incorrectly reported for the fourth quarter of 2009, the first quarter of 2010, and the
              second quarter of 2010.

                                     Jobs reported to            Corrected               Difference
                                     Recovery.gov                calculation
                  Quarter 4 2009          4.82                     4.66                          .16
                  Quarter 1 2010          31.11                    43.71                      (12.6)
                  Quarter 2 2010          80.22                    81.53                      (1.31)
               
              The Commission used an outdated job calculator to calculate the number of jobs
              created in the fourth quarter of 2009. According to Office of Management and
              Budget (OMB) Memorandum 10-08, the job calculation methodology had been
              updated as of December 18, 2009. The new job calculation methodology was
              simplified from prior guidance and included dividing the total number of hours
              worked and funded by the Recovery Act within the reporting quarter by quarterly
              hours in a full-time schedule. The result of the calculation is the full-time-equivalent
              jobs reported to Recovery.gov.

              Additionally, the Commission underreported jobs created for the first quarter of
              2010 by 12.6. It continued to use the outdated job calculator, and it used the wrong
              percentage of TCAP funds to calculate the number of jobs. According to OMB
              Memorandum 10-08, if not all jobs were funded by the Recovery Act, an adjustment
              is made to the jobs number to match the appropriate percentage of Recovery Act
              funding. The Commission used the wrong percentage of TCAP funds for three
              projects during the first quarter of 2010. Further, a project’s job creation report was
              submitted using a 28-hour full-time work week, although the project’s contractors
              worked a 40-hour full-time work week.

              The Commission underreported jobs created during the second quarter of 2010 by
              1.31. It used the wrong percentage of TCAP funds for one project. In addition, the
              job calculators for five of the projects did not accurately calculate and report jobs


                                                 7
           created. The job calculators did not show any jobs created for some of the
           contractors with hours worked in the quarter and did not accurately calculate the
           number of jobs for the quarter.


The Commission Relied on the
Contractor’s Report of Jobs
Created and Was Unaware of
Changes to Calculation Method

           The Commission did not establish an adequate system for reviewing the reports
           supplied by its contractors. It relied on the contractors’ reports of jobs created and
           did not have a system in place to review the reports for accuracy and consistency,
           resulting in several undetected errors. The Commission compiled the total number
           of jobs reported by each general contractor without reviewing the various line items
           on the report. If it had, it would have been able to catch the errors, such as the 28-
           hour work week and the various blank lines where the totals had not carried forward
           from one line to the next.

           In addition, although OMB had updated the job calculation methodology, effective
           December 2009, the Commission did not become aware of the changes until April
           2010 when it received an e-mail from HUD containing updated job count guidance.
           The Commission stated that it checked for updates to TCAP guidance but was not
           aware of all available sources of information.

Recovery Act Goals Were Not
Achieved

           As a result of the conditions described above, the public did not have access to
           accurate information on the number of jobs created with the Commission’s TCAP
           funds. One of the overriding goals of the Recovery Act—fostering unprecedented
           levels of accountability and transparency in government spending—was not
           achieved. It was expected that the transparency requirements of the Recovery
           Act, specifically the requirement to publish both spending and recipient
           performance reports including jobs created, would create accountability among
           grantees.




                                             8
Recommendations


          We recommend that the Director of Office of Affordable Housing require the
          Commission to

          2A.     Maintain within its administrative records comprehensive information on
                  corrections to job creation figures for the fourth quarter of 2009 and the
                  first quarter of 2010.

          2B.     Restate the job creation figures for the second quarter of 2010 to
                  FederalReporting.gov.

          2C.     Establish and implement an adequate system for reviewing the job
                  creation reports received from contractors.




                                            9
                         SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed the selected project’s written agreements, the Federal
law requirements and supporting documentation, the Commission’s policies and procedures, the
results of prior certified public accountant reviews, the reporting to Recovery.gov, and pertinent
laws and regulations. We also interviewed Commission and HUD staff.

On June 26, 2009, HUD awarded the Commission nearly $39 million in TCAP funds. Based on
the spreadsheet obtained from the Commission as of May 26, 2010, it had awarded all of its
TCAP funds to 24 LIHTC projects and disbursed more than $17 million of these funds. To
compile our Federal reporting review sample of three projects, we selected (1) the project that
had drawn down all of its TCAP funds, (2) the project that had not drawn down any TCAP
funds, and (3) the project that was awarded and drew down the largest amount of TCAP funds.
We reviewed these projects’ files for evidence of Federal reporting requirements including
lobbying and Davis-Bacon Act documentation.

We also reviewed all of the projects to verify job creation figures that the Commission reported
to Recovery.gov. To accomplish this task, we obtained and reviewed the job calculators for each
of the projects for the fourth quarter of 2009 and the first and second quarters of 2010. We
determined that the Commission used an outdated job calculator for the fourth quarter of 2009
and the first quarter of 2010; therefore, we reran the job creation figures on an updated
calculator. We also reran the job creation figures for the second quarter of 2010 because the
calculators supplied by the contractors inaccurately calculated and reported jobs created.

Also, during our review of job creation, we recalculated the percentage of TCAP funds used in
the job creation calculation. Our review of the calculators and calculations determined that the
Commission used the wrong percentage of TCAP funds and the incorrect number of full-time
hours in a work week for several TCAP projects.

Our audit period generally covered May 2009 through April 2010. We expanded the period as
necessary to address issues identified during our review. We performed audit work from May
through August 2010 at the Commission’s office at 3435 Broadway, Kansas City, MO.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                 10
                              INTERNAL CONTROLS

Internal control is a process adapted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objectives:

                     Controls to ensure compliance with HUD and Recovery Act requirements.
                     Controls over the reporting of TCAP grant information to Recovery.gov.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies


               Based on our review, we believe that the following items are significant deficiencies:

                     The Commission did not have an adequate system in place to identify which
                      contractors worked on TCAP-funded projects each month (finding1).
                     The Commission did not have an adequate system in place to review the job
                      creation reports supplied by the contractors (finding 2).                          




                                                 11
                                       APPENDIXES

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                           Auditee Comments

                                                  September 3, 2010 




                                                                                                              
             Mr. Ronald J. Hosking 
             Regional Inspector General for Audit 
             U.S. Department of Housing and Urban Development 
             Office of Inspector General 
             Region VII Office of Audit 
             Gateway Tower II – 5th Floor 
             400 State Avenue 
             Kansas City, KS  66101‐2406 
              
                      Re:       Discussion Draft of HUD OIG Audit of  
                                Missouri Housing Development Commission’s 
                                Tax Credit Assistance Program 
              
             Dear Mr. Hosking: 
              
                      Thank you for giving to the Missouri Housing Development Commission (the 
             “Commission”) the opportunity to respond to the draft audit report prepared by the 
             Office  of  the  Inspector  General  (the  “OIG”)  of  the  U.S.  Department  of  Housing  and 
             Urban  Development  (“HUD”)  with  respect  to  the  audit  recently  performed  on  the 
             Commission’s Tax Credit Assistance Program (“TCAP”).   
              
                      Among its other functions, the Commission administers the Federal and the 
             Missouri Low Income Housing Tax Credit (LIHTC) programs for the State of Missouri.  
             The American Recovery and Reinvestment Act of 2009 (the “Recovery Act”) included 
             an  appropriation  in  the  amount  of  $2.25  billion  for  TCAP  funds  to  be  awarded  by 
             HUD to the 52 State housing credit agencies, including the Commission, to be used 
             for capital investments in LIHTC projects.  The Commission awarded its allocation of 
             TCAP  funds  to  24  LIHTC  developments,  consisting  of  12  family  and  12  elderly 
             projects,  which  involve  the  creation  or  rehabilitation  of  1,474  housing  units  in  the 
             State of Missouri. 


                                                   12
Ref to OIG Evaluation                          Auditee Comments

                      A  major  purpose  of  the  Recovery  Act  was  to  jump‐start  the  Nation’s 
             economy,  with  a  primary  focus  on  creating  and  saving  jobs  in  the  near  term  while 
             also investing in infrastructure that will provide long‐term economic benefits.  Thus, 
             the purpose of the OIG audit was to review the Commission’s oversight of the TCAP 
             funds awarded to the 24 LIHTC projects mentioned above, to confirm that workers 
             on  the  projects  received  Davis‐Bacon  prevailing  wages,  that  TCAP  funds  were  not 
             being  used  for  lobbying  activities,  and  that  accurate  reports  of  job  creation  were 
             provided to Recovery.gov. 
                       
                      To  confirm  that  these  requirements  were  being  satisfied,  the  Commission 
             assigned various responsibilities to its staff members, including the following: 
                       
                      1.        The Commission assigned to one of its employees the responsibility 
                      to review the weekly certified payrolls of the contractors and subcontractors 
                      on  all  projects  to  confirm  that  each  of  the  workers  was  being  paid  the 
                      prevailing wage rate required by the Davis‐Bacon Act. 
              
                      2.        In  addition,  the  Commission  designed  a  form  titled  “Master 
Comment 1             Subcontract  List”  that  required  the  contractor  to  provide  the  full  name  of 
                      each  subcontractor  used  on  the  project;  to  specify  whether  the 
                      subcontractor qualified as a Section 3, WBE, MBE, or DBE subcontractor; to 
                      list the date of the subcontract as well as the date on which the subcontract 
                      work began or was scheduled to begin; to identify all subcontracts exceeding 
                      $100,000  in  amount  so  that  the  Commission  could  obtain  anti‐lobbying 
                      certifications  from  each  such  subcontractor;  and  to  note  those  months 
                      during which each subcontractor provided labor or materials to the project.   
                       
                      3.        The Commission required the contractor on each project to update 
                      the Master Subcontract List on a monthly basis, to allow the Commission to 
                      (1)  track  the  dates  on  which  each  subcontractor  was  providing  labor  or 
                      materials  to  the  project  so  that  the  Commission  could  confirm  that  it  was 
                      receiving  Davis‐Bacon  certified  payrolls  from  all  such  subcontractors  during 
                      the  month  in  question,  and  (2)  obtain  lobbying  certification  forms  from  all 
                      subcontractors  working  on  the  project  at  any  time  whose  subcontracts 
                      exceeded $100,000. 

                      4.       In  addition,  the  Commission  electronically  forwarded  the  HUD  job 
                      calculator to the contractors on a quarterly basis and required each of them 
                      to  provide  the  total  number  of  hours  worked  during  that  quarter.    The 
                      Commission also required the owners of each project to certify the accuracy 
                      and  completeness  of  the  information  provided  by  the  contractors.  After 
                      receipt  of  this  information  from  the  contractors/owners,  the  Commission 
                      entered into the job calculator the TCAP percentage applicable to the project 
                      in question, and reported the result to Recovery.gov. 

                       
                                                  13
Ref to OIG Evaluation                          Auditee Comments

                      Having  reviewed  the  OIG’s  draft  audit  report,  the  Commission  intends  to 
             implement the recommendations made therein, to further confirm the accuracy and 
             completeness of the project information received by the Commission and provided 
             to FederalReporting.gov.   
                       
                      Specifically,  the  OIG’s  Audit  Finding  1  states  that  “The  Commission  did  not 
             obtain  all  wage  reports  and  lobbying  certifications  required  by  Federal  law.”    The 
             associated  Recommendations  are  that  the  Commission  “design  and  implement  an 
             adequate system for identifying contractors working on TCAP‐funded projects during 
             the  month  and  tracking  the  receipt  of  required  documentation,”  and  that  the 
             Commission “obtain and review the required lobbying and Davis‐Bacon Act reports 
             that are missing.”   
                       
Comment 2             In response to these Recommendations, the Commission is in the process of 
             obtaining and reviewing any missing Davis‐Bacon Act certified payrolls and lobbying 
             certifications.    In  addition,  the  Commission  has  designed  and  is  implementing 
             additional safeguards to confirm the receipt of all required documentation. 
                                 
                      Specifically,  the  Commission  will  require  all  contractors  to  complete  the 
Comment 2    “Master Subcontract List” form on a weekly basis and provide it to the Commission, 
             along with all associated Davis‐Bacon certified payrolls, with the Master Subcontract 
             List and the payrolls to be accompanied by a certification from both the contractor 
             and the owner to the effect that the list is an accurate and complete statement of all 
             subcontractors who have provided labor and materials to the project for the week in 
             question and that all associated Davis‐Bacon certified payrolls have been provided to 
             the Commission.  Upon receipt of this information, the Commission’s employees will 
             continue  to  confirm  that  (1)  each  worker  listed  on  the  certified  payrolls  has  been 
             paid  the  appropriate  prevailing  wage,  and  (2)  that  the  Commission  has  received 
             lobbying  certifications  from  each  subcontractor  on  the  “Master  Subcontract  List” 
             whose subcontract amount exceeds $100,000.   
              
                      The  OIG’s  Audit  Finding  2  states  that  “the  Commission  did  not  accurately 
             calculate  jobs  or  report  them  to  Recovery.gov,”  while  the  associated 
             Recommendations  suggest  that  the  Commission  (a)  “Maintain  within  its 
             administrative  records  comprehensive  information  on  corrections  to  job  creation 
             figures for the fourth quarter of 2009 and the first quarter of 2010”; (b) “Restate the 
             job creation figures for the second quarter of 2010 to FederalReporting.gov”; and (c) 
             “Establish and implement an adequate system for reviewing the job creation reports 
             received from contractors.” 
              
              




                                                  14
Ref to OIG Evaluation                            Auditee Comments

Comment 2              The Commission has satisfied Recommendations (a) and (b) above, and is in 
             the  process  of  implementing  Recommendation  (c)  above.    Specifically,  the 
             Commission will now provide the HUD job calculator to the contractors on a weekly 
             basis and require them to include in the calculator the total number of hours worked 
             by all subcontractors on the project for the week in question, with this information 
             to  be  certified  by  the  contractor  and  the  owner.    When  this  information  has  been 
             received, an  MHDC employee will include in the job calculator the applicable  TCAP 
             percentage  for  the  project  in  question.    The  information  received  from  the 
             contractor as to the hours worked will be verified by a second MHDC employee, who 
             will  confirm  that  the  hours  worked  on  the  project  corresponds  to  the  number  of 
             hours  shown  on  the  subcontractors’  certified  payrolls  provided  for  the  week  in 
             question.    This  second  MHDC  employee  also  will  confirm  that  the  proper  TCAP 
             percentage amount has been included in the HUD job calculator. 
                        
                       In this way, the Commission believes that it will be able to provide complete 
             and accurate information to the American people with respect to the number of jobs 
             created  by  the  TCAP  funds  appropriated  under  the  Recovery  Act,  as  well  as  to 
             confirm  that  the  workers  received  appropriate  Davis‐Bacon  prevailing  wage 
             payments  and  that  the  TCAP  funds  provided  were  not  used  inappropriately  for 
             lobbying activities. 
                        
                       Once again, the Missouri Housing Development Commission wants to extend 
             its sincere appreciation to the U.S. Department of Housing and Urban Development, 
             as  well  as  its  Office  of  the  Inspector  General,  for  its  oversight  of  the  Commission’s 
             administration of the TCAP funds to ensure their proper disbursement in support of 
             our Nation’s recovery from the current economic crisis.     
              
                                                     Very truly yours, 
                                                                 
                                                                 
                                                                 
                                                     Margaret D. Lineberry 
                                                      Executive Director 




                                                    15
                         OIG Evaluation of Auditee Comments

Comment 1   As noted in the report, this subcontractor list was not being used for Davis-Bacon
            monitoring and review.

Comment 2   The Commission has taken positive steps to implement the recommendations,
            including second reviews of job calculators and weekly reporting for Davis-Bacon
            and lobbying. With the implementation of these recommendations, the
            Commission will have better oversight of the TCAP.




                                            16
